Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




IMPROVEMENTS ARE NEEDED
AT THE ADMINISTRATIVE LAW
 JUDGE LEVEL OF MEDICARE
         APPEALS




                    Daniel R. Levinson
                     Inspector General

                     November 2012
                     OEI-02-10-00340
EXECUTIVE SUMMARY: IMPROVEMENTS ARE NEEDED AT THE
ADMINISTRATIVE LAW JUDGE LEVEL OF MEDICARE APPEALS
OEI-02-10-00340


WHY WE DID THIS STUDY

Administrative law judges (ALJ) within the Office of Medicare Hearings and Appeals (OMHA)
decide appeals at the third level of the Medicare appeals system. In 2005, among other changes,
ALJs were required to follow new regulations addressing how to apply Medicare policy, when to
accept new evidence, and how the Centers for Medicare & Medicaid Services (CMS) participates
in appeals. Medicare providers and beneficiaries may appeal certain decisions related to claims
for health care services and items.

HOW WE DID THIS STUDY

We based this study on an analysis of all ALJ appeals decided in fiscal year (FY) 2010;
structured interviews with ALJs and other staff; structured interviews with Qualified
Independent Contractors (QIC), which administer the second level of appeal, and CMS staff;
policies, procedures, and other documents; and data on CMS participation in ALJ appeals.

WHAT WE FOUND

Providers filed the vast majority of ALJ appeals in FY 2010, with a small number accounting for
nearly one-third of all appeals. For 56 percent of appeals, ALJs reversed QIC decisions and
decided in favor of appellants; this rate varied substantially across Medicare program areas.
Differences between ALJ and QIC decisions were due to different interpretations of Medicare
policies and other factors. In addition, the favorable rate varied widely by ALJ. When CMS
participated in appeals, ALJ decisions were less likely to be favorable to appellants. Staff raised
concerns about the acceptance of new evidence and the organization of case files. Finally, ALJ
staff handled suspicions of fraud inconsistently.

WHAT WE RECOMMEND

We recommend that OMHA and CMS: (1) develop and provide coordinated training on
Medicare policies to ALJs and QICs, (2) identify and clarify Medicare policies that are unclear
and interpreted differently, (3) standardize case files and make them electronic, (4) revise
regulations to provide more guidance to ALJs regarding the acceptance of new evidence, and
(5) improve the handling of appeals from appellants who are also under fraud investigation and
seek statutory authority to postpone these appeals when necessary. Further, we recommend that
OMHA: (6) seek statutory authority to establish a filing fee, (7) implement a quality assurance
process to review ALJ decisions, (8) determine whether specialization among ALJs would
improve consistency and efficiency, and (9) develop policies to handle suspicions of fraud
appropriately and consistently and train staff accordingly. Finally, we recommend that CMS:
(10) continue to increase CMS participation in ALJ appeals. OMHA and CMS concurred fully
or in part with all 10 of our recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................4
Findings........................................................................................................8
           Providers filed 85 percent of the appeals decided by ALJs in
           FY 2010............................................................................................8
           For 56 percent of appeals, ALJs reversed prior-level
           decisions and decided fully in favor of appellants ...........................9
           Differences between ALJ and QIC decisions were due to
           different interpretations of Medicare policies and other factors ....10
           The favorable rate varied widely by ALJ ....................................... 11
           CMS participated in 10 percent of ALJ appeals; these appeals
           were less likely to be decided fully in favor of appellants .............13
           Staff raised concerns about the acceptance of new evidence and
           the organization of case files..........................................................14
           ALJ staff handled suspicions of fraud inconsistently ....................15
Conclusion and Recommendations ............................................................17
           Agencies’ Comments and Office of Inspector General Response .21
Appendixes ................................................................................................23
           A: Administrative Law Judge Appeals Filed by Each Type of
           Appellant, Fiscal Year 2010 ...........................................................23
           B: Percentage of Administrative Law Judge Appeals That
           Were Fully Favorable to Appellants, Fiscal Year 2010 ..................24
           C: Actual Fully Favorable Rates Compared to Expected Fully
           Favorable Rates by Administrative Law Judge, Fiscal
           Year 2010 .......................................................................................25
           D: Office of Medicare Hearings and Appeals Comments ............26
           E: Centers for Medicare & Medicaid Services Comments ...........31
Acknowledgments......................................................................................35
OBJECTIVES
1. To describe the characteristics of appeals decided by Medicare administrative
      law judges (ALJ) in fiscal year (FY) 2010.
2. To describe differences between ALJ and prior-level decisions and differences
      among ALJs.
3. To determine the extent to which the Centers for Medicare & Medicaid
      Services (CMS) participated in ALJ appeals in FY 2010.

BACKGROUND
Medicare providers and beneficiaries may appeal certain decisions related to
claims for health care services and items. 1 The administrative appeals process
includes four levels; ALJs decide appeals at the third level. In 2005, the
responsibility for conducting ALJ appeals was transferred from the Social
Security Administration (SSA) to the Department of Health and Human Services
(HHS). 2
Among other changes, ALJs were required to follow new regulations that
addressed how Medicare policy must be applied, when new evidence may be
accepted, and how CMS can participate in appeals. 3 Before these changes were
introduced, two Office of Inspector General (OIG) reports found a number of
problems with Medicare appeals. 4 In particular, OIG found that the different
levels of appeal did not consistently apply the same standards and that CMS’s
ability to defend its decisions was limited. The 2005 regulatory changes were
intended to address many of these concerns.
This report is the first to assess the impact of these changes on ALJ appeals. In
particular, it describes the characteristics of appeals decided by ALJs, differences
between ALJ and prior-level decisions, differences among ALJs, and CMS’s
participation in ALJ appeals.
The Medicare Administrative Appeals Process
There are four levels of appeal:
      •    Level One, administered by CMS Medicare Administrative Contractors;

1
  For the purposes of this report, we use “provider” to refer to both providers and suppliers that provide
items and services under Medicare Parts A and B.
2
    The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. 108-173 § 931.
3
    42 CFR §§ 405.1010, 405.1012, 405.1028, and 405.1062(a).
4
  OIG, Medicare Administrative Appeals: ALJ Hearing Process, OEI-04-97-00160, September 1999;
OIG, Medicare Administrative Appeals: The Potential Impact of BIPA, OEI-04-01-00290,
January 2002.
                       •    Level Two, administered by CMS Qualified Independent Contractors
                            (QIC);
                       •    Level Three, administered by ALJs; and
                       •    Level Four, administered by the Medicare Appeals Council. 5

                  When a party is dissatisfied with CMS’s payment decision on a claim, that party
                  may appeal. The party that files an appeal is called the appellant. If appellants
                  receive unfavorable decisions at one level, they may appeal to the next level. 6
                  Appellants include Medicare beneficiaries; Medicare providers, such as
                  physicians, suppliers, and hospitals; and State Medicaid agencies. State Medicaid
                  agencies may appeal when there is a question of whether Medicare, rather than
                  Medicaid, should pay for the services or items received by beneficiaries who are
                  eligible for both Medicare and Medicaid coverage (known as dually eligible
                  beneficiaries).
                  The first level of appeal is administered by the CMS contractors that make the
                  initial decisions to pay or deny claims. 7 At the second level, two QICs conduct
                  Part A appeals; two conduct Part B appeals; and one conducts appeals for durable
                  medical equipment, prosthetics, orthotics, and supplies (DMEPOS). At the first
                  two levels, decisions are made after the contractors review the evidence in the
                  case files. 8
                  The third level of appeal is conducted by ALJs and differs substantially from the
                  first two levels. One of the major differences is that the appellant has the right to
                  a hearing before an ALJ. Under certain circumstances, however, the ALJ may not
                  conduct a hearing and instead may make a decision after reviewing the evidence
                  in the case file (known as an on-the-record review). 9
                  An ALJ may make a decision that is fully favorable, partially favorable, or
                  unfavorable to the appellant. 10 These decisions must be based on evidence in the

                  5
                    The third and fourth levels apply to most types of appeals, but the first two levels apply only to
                  appeals related to Medicare Parts A and B claims.
                  6
                    The first two levels of appeal do not require a minimum dollar amount to be at issue, but the ALJ
                  level does. In FY 2010, this threshold was $130. See 42 CFR § 405.1006. None of the levels of
                  appeal require appellants to pay a filing fee.
                  7
                    Of the 1.1 billion Parts A and B claims that CMS contractors processed in 2010, 117 million were
                  denied and 2.7 million were appealed to the first level. See CMS, Fact Sheet: Original Medicare (Fee-
                  For-Service) Appeals Data – 2010. Accessed at https://www.cms.gov/Medicare/Appeals-and-
                  Grievances/OrgMedFFSAppeals/Downloads/Factsheet2010.pdf on August 8, 2012.
                  8
                    The case file refers to the administrative record and includes claims, medical records, and other
                  evidence. See 42 CFR § 405.1044(b).
                  9
                    An ALJ may make a decision after an on-the-record review if the parties waive their right to a hearing
                  or if the evidence supports a fully favorable decision for the appellant.
                  See 42 CFR §§ 405.1000(e)–(g). See also 42 CFR § 405.1038.
                  10
                    Under certain circumstances, an ALJ may also dismiss an appeal or remand it to the prior level.
                  See 42 CFR §§ 405.1034 and 405.1052.


Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)               2
                  case files and on hearing testimony. 11 The law protects ALJs’ independence to
                  ensure that their decisions are impartial and free from HHS influence. 12 Any
                  party who is dissatisfied with the ALJ’s decision may appeal to the Medicare
                  Appeals Council. When deciding appeals, adjudicators at all four levels conduct a
                  new, independent review of the evidence and are not bound by the prior levels’
                  findings and decisions. 13 After exhausting the four levels of the administrative
                  appeals process, parties may seek judicial review in Federal District Court.
                  Changes to Medicare ALJ Appeals
                  In 2005, HHS established the Office of Medicare Hearings and Appeals (OMHA),
                  which created a group of ALJs dedicated to deciding Medicare appeals. These
                  ALJs were required to follow new regulations that addressed how Medicare
                  policy must be applied, when new evidence may be accepted, and how CMS may
                  participate in appeals.
                  Prior to 2005, ALJs were bound by Medicare laws, regulations, and National
                  Coverage Determinations when making decisions, but were not bound by Local
                  Coverage Determinations or CMS program guidance. In 2005, new regulations
                  were introduced that required ALJs to “give substantial deference” to these latter
                  policies and to provide an explanation if they decline to follow one of these
                  policies in an appeal. 14
                  Prior to 2005, appellants were allowed to submit new evidence at the ALJ level
                  without restrictions. Beginning in 2005, an appellant must explain in writing the
                  reason for submitting new evidence and ALJs may accept the new evidence only
                  if they determine that the appellant had “good cause” for waiting until the ALJ
                  level to submit it.15
                  Before 2005, CMS was not allowed to participate in ALJ appeals, which were
                  established as a nonadversarial system for appellants to present their cases before
                  neutral judges. 16 Under the new regulations, however, CMS may choose to
                  participate in ALJ appeals as either a participant or a party. As a participant, CMS

                  11
                       42 CFR § 405.1046(a).
                  12
                       5 U.S.C. § 554(d).
                  13
                    This type of review is referred to as de novo. See CMS, Medicare Claims Processing Manual, Pub.
                  No. 100-04, ch. 29, § 110; 42 CFR §§ 405.948, 405.968(a)(1), 405.1000(d), and 405.1100(c).
                  14
                    42 CFR § 405.1062(a)–(b). Prior to these regulations, Federal case law established that adjudicators
                  should give deference to agency guidance, such as Local Coverage Determinations. See Shalala v.
                  Guernsey Memorial Hospital, 514 US 87 (1995). QICs are also bound by Medicare laws, regulations,
                  and National Coverage Determinations and must give substantial deference to Local Coverage
                  Determinations and CMS program guidance. See 42 CFR § 405.968(b).
                  15
                     42 U.S.C. § 1395ff(b)(3). This restriction applies to providers and represented beneficiaries, but not
                  to unrepresented beneficiaries. It also does not apply to oral testimony presented during the hearing.
                  See 42 CFR §§ 405.1018(c) and 405.1028.
                  16
                    Before 2005, CMS participated occasionally when an ALJ requested its participation.
                  See 70 Fed. Reg. 11459 (Mar. 8, 2005).


Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)             3
                  may submit position papers and provide testimony during the hearing. 17 As a
                  party, CMS may also submit evidence to the ALJ, call or cross-examine witnesses
                  during the hearing, and appeal to the next level. 18 CMS contractors, rather than
                  the agency, typically participate in ALJ appeals.
                  Related Work
                  This report is part of OIG’s continuing work on Medicare ALJ appeals. Two OIG
                  reports evaluated ALJ appeals when they were administered by SSA. 19 These
                  reports found that the different levels of appeal did not consistently apply the
                  same standards and that CMS’s ability to defend its decisions was limited. OIG
                  recommended requiring the different levels of appeal to apply the same standards,
                  creating a dedicated ALJ corps for Medicare, and allowing increased participation
                  from CMS at the ALJ level.
                  In addition, two OIG reports evaluated ALJ appeals after the transition from SSA
                  to OMHA. 20 These reports were focused on the timeliness of ALJ appeals and on
                  the format of ALJ hearings, which included, for the first time, telephone and video
                  teleconference hearings in addition to the in-person hearings used by SSA. The
                  reports found that OMHA did not decide a number of its cases in a timely manner
                  during its first 13 months of operation, but that timeliness improved by its third
                  year of operation. In addition, OIG found that most appellants who were
                  interviewed were satisfied with their hearing formats.

                  METHODOLOGY
                  We based this study on an analysis of: (1) data on appeals decided in FY 2010;
                  (2) structured interviews with ALJs and other OMHA staff; (3) structured
                  interviews with QIC and CMS staff; (4) policies, procedures, and other
                  documents; and (5) data on CMS participation in ALJ appeals.
                  Appeals Data
                  We obtained data on ALJ appeals from the Medicare Appeals System (MAS), a
                  database that tracks appeals at the second and third levels. Using these data, we
                  examined several characteristics of the appeals decided by ALJs in FY 2010.
                  We calculated the percentage of ALJ appeals for each appellant type—
                  beneficiaries, providers, and State Medicaid agencies. We determined whether


                  17
                       42 CFR § 405.1010(c).
                  18
                       42 CFR § 405.1012.
                  19
                     OIG, Medicare Administrative Appeals: ALJ Hearing Process, OEI-04-97-00160, September 1999;
                  OIG, Medicare Administrative Appeals: The Potential Impact of BIPA, OEI-04-01-00290,
                  January 2002.
                  20
                    OIG, Medicare Administrative Law Judge Hearings: Early Implementation, 2005–2006,
                  OEI-02-06-00110, July 2008; OIG, Medicare Administrative Law Judge Hearings: Update,
                  2007–2008, OEI-02-06-00111, January 2009.


Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)      4
                  the different types of appellants were more likely to file appeals related to certain
                  Medicare program areas (e.g., Part A hospital appeals). 21 We also calculated the
                  number of appeals associated with each unique appellant and identified the
                  appellants who filed frequently. 22 We considered appellants to be frequent filers
                  if they had 50 or more appeals decided in FY 2010.
                  Next, we calculated the percentage of appeals associated with each type of ALJ
                  decision: fully favorable to the appellant, partially favorable to the appellant,
                  unfavorable to the appellant, or other. 23 In addition, we determined the extent to
                  which the fully favorable rate varied by Medicare program area and by appellant
                  type.
                  We then analyzed how the fully favorable rate varied by ALJ. 24 We determined
                  whether the variation in fully favorable rates was associated with some ALJs’
                  deciding more appeals in certain Medicare program areas than other ALJs. To
                  conduct this analysis, we compared each ALJ’s actual fully favorable rate to that
                  ALJ’s expected fully favorable rate. 25 In addition, we determined the extent to
                  which frequent filers received different favorable rates from different ALJs.
                  Finally, we determined whether certain ALJs were more likely than others to
                  decide appeals after an on-the-record review of the case file.
                  We also obtained data from MAS on appeals that QICs decided in FY 2010. We
                  used these data to calculate the percentage of QIC appeals that were fully
                  favorable to appellants.
                  Structured Interviews With ALJs and Other OMHA Staff
                  We conducted structured interviews with the Chief ALJ, the Executive Director of
                  OMHA, the Managing ALJ from each field office, and a sample of ALJ teams. 26

                  21
                       We analyzed DMEPOS appeals separately from other Part B appeals throughout the report.
                  22
                     To identify unique appellants, we took into account appellant information, such as name and
                  Medicare identifier. In MAS, the Medicare identifiers include National Provider Identifiers and Health
                  Insurance Claim Numbers, among others. Additionally, for appellants who were providers, we linked
                  Medicare identifiers to information in CMS’s Provider Enrollment, Chain, and Ownership System to
                  determine which providers were part of a chain. We considered all providers that had the same
                  Medicare identifier or that were part of the same chain to be unique appellants.
                  23
                    Under certain circumstances, ALJs may dismiss appeals or remand them to the prior level; appellants
                  may also escalate appeals to the next level if ALJs do not make timely decisions.
                  See 42 CFR §§ 405.1034, 405.1052, and 405.1104.
                  24
                      For this analysis, of the 72 ALJs, we included the 66 who decided at least 50 appeals as fully
                  favorable, partially favorable, or unfavorable during FY 2010. These ALJs accounted for 99 percent of
                  all appeals.
                  25
                     To determine each ALJ’s expected rate, we first calculated the fully favorable rate among all ALJs
                  for each Medicare program area; next, we multiplied these rates by the percentage of appeals that the
                  ALJ had in that program area and summed the results.
                  26
                     OMHA’s central office and one of its field offices are located in Arlington, Virginia. The other three
                  field offices are in Miami, Florida; Cleveland, Ohio; and Irvine, California. At the time of the
                  interviews, the Virginia field office had 4 ALJ teams and the other three had 13, 21, and 18 ALJ teams,
                  respectively. For the purposes of this report, we refer to all respondents as ALJ staff.


Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)             5
                  We randomly selected 20 percent of the ALJ teams from each field office, for a
                  total of 12 ALJ teams. The teams were each made up of an ALJ, an attorney, and
                  other staff. We interviewed the ALJ and the attorney from each team. Our
                  questions focused on ALJs’ approaches to decisionmaking, including their
                  application of Medicare policies and their acceptance of new evidence, and on
                  their experience with CMS participation in appeals. We conducted these
                  interviews in December 2010 and January 2011.
                  Structured Interviews With QIC and CMS Staff
                  We conducted structured interviews with key staff from the three CMS divisions
                  that oversee the contractors that administer the first two levels of appeal, as well
                  as other contractors that participate in ALJ appeals. 27 We also conducted
                  structured interviews with key staff from each of the five QICs and the
                  Administrative QIC, which provides support to the QICs. 28 Our questions
                  focused on the QICs’ and other contractors’ experience participating in ALJ
                  appeals and on the QICs’ approaches to decisionmaking. We conducted these
                  interviews in August and September 2011.
                  Review of Documentation
                  In the fall of 2010, we requested and reviewed written policies, procedures, and
                  training materials from OMHA and CMS. We used these documents primarily to
                  validate the information from our interviews.
                  CMS Participation Data
                  We obtained data from CMS regarding its contractors’ participation in ALJ
                  appeals that were decided in FY 2010. 29 For each appeal, CMS indicated which
                  contractor participated, whether the contractor was a participant or a party, and
                  whether it submitted a position paper or testified at the ALJ hearing. We merged
                  these data with the MAS data.
                  We then calculated the percentage of all ALJ appeals in which CMS participated
                  and assessed how the rate of participation varied by Medicare program area and
                  by type of contractor. We also determined the extent to which CMS was a
                  participant versus a party and the extent to which it submitted position papers
                  versus testified at ALJ hearings. Lastly, we compared the ALJ favorable rates
                  when CMS participated to when it did not participate.




                  27
                    These other contractors include the Zone Program Integrity Contractors, Program Safeguard
                  Contractors, and Recovery Audit Contractors, all of which take steps to recoup inappropriate Medicare
                  payments.
                  28
                       For the purposes of this report, we refer to CMS and contractor respondents as CMS staff.
                  29
                     These data were limited to Medicare Part A, Part B, and DMEPOS appeals. CMS does not
                  participate in Parts C and D appeals, which typically involve disputes between appellants and their
                  private plans.


Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)                6
                  Standards
                  This study was conducted in accordance with the Quality Standards for Inspection
                  and Evaluation issued by the Council of the Inspectors General on Integrity and
                  Efficiency.




Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   7
                  FINDINGS
                  Providers filed 85 percent of the appeals decided by ALJs in
                  FY 2010
                  Providers filed 85 percent of the 40,682 appeals that ALJs decided in FY 2010.
                  These providers included physicians, suppliers, and hospitals, among others. As
                  shown in Table 1, beneficiaries filed 11 percent of the appeals, while State
                  Medicaid agencies filed 3 percent. State Medicaid agencies may appeal when
                  there is a question of whether Medicare, rather than Medicaid, should pay for the
                  services or items received by a dually eligible beneficiary.


                  Table 1: Percentage of ALJ Appeals by Appellant Type, FY 2010

                                                             Number of    Number of   Percentage
                    Type of Appellant
                                                             Appellants     Appeals   of Appeals

                    Provider                                      6,102      34,542         85%
                    Beneficiary                                   4,429       4,631         11%
                    State Medicaid Agency                            5        1,361           3%
                    Unknown                                        120         148          <1%

                       Total                                     10,656      40,682        100%

                   Source: OIG analysis of MAS data, 2012.




                  Providers, beneficiaries, and State Medicaid agencies tended to file different types
                  of appeals. Providers were more likely than other appellant types to file Part B
                  and DMEPOS appeals, while beneficiaries were more likely to file
                  Parts C and D appeals. State Medicaid agencies were more likely than other
                  appellant types to file Part A appeals, especially home health, hospice, and skilled
                  nursing facility appeals. For example, 90 percent of State Medicaid agency
                  appeals were Part A appeals, while only 40 percent of provider appeals and
                  16 percent of beneficiary appeals were Part A appeals. See Appendix A for more
                  information on appeals by appellant type.
                  A small number of providers accounted for nearly one-third of all
                  appeals
                  Certain providers filed appeals much more frequently than others. On average,
                  providers filed six appeals each. However, 96 providers were frequent filers that
                  filed at least 50 appeals each, with 1 provider filing 1,046 appeals. While these
                  providers represented 2 percent of all providers, they accounted for nearly one-
                  third of all ALJ appeals in FY 2010. These providers were twice as likely as other
                  providers to file DMEPOS appeals. No beneficiaries were frequent filers.
                  However, 4 State Medicaid agencies filed at least 50 appeals each; 2 of these filed
                  more than 500 appeals each.

Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   8
                  Many ALJ staff raised concerns about the frequent filers. Several staff noted that
                  some of these appellants appeal every payment denial. A few staff said that these
                  appellants have an incentive to appeal because the cost is minimal and a favorable
                  decision is likely.

                  For 56 percent of appeals, ALJs reversed prior-level
                  decisions and decided fully in favor of appellants
                  ALJs may decide appeals in several ways: fully favorable to appellants, partially
                  favorable to appellants, or unfavorable to appellants. 30 As shown in Table 2, ALJs
                  reversed prior-level decisions by QICs and decided fully in favor of appellants in
                  56 percent of appeals in FY 2010. In contrast, QICs decided fully in favor of
                  appellants in 20 percent of appeals in FY 2010.

                  Table 2: Percentage of ALJ Appeals by Decision, FY 2010

                    Appeal Decision                                      Percentage of Appeals

                    Fully favorable to the appellant                                        56%
                    Partially favorable to the appellant                                     6%
                    Unfavorable to the appellant                                            24%
                    Dismissed, remanded, or escalated                                       14%
                        Total                                                              100%
                   Source: OIG analysis of MAS data, 2012.




                  The ALJ fully favorable rate varied substantially across Medicare program areas.
                  As shown in Table 3, the fully favorable rate was the highest for Part A hospital
                  appeals at 72 percent, while the rates were the lowest for Parts C and D appeals at
                  18 and 19 percent, respectively. Several ALJ staff noted that an ALJ typically has
                  less discretion when deciding Parts C and D appeals because the beneficiary has
                  agreed to a contract with a private plan that covers or does not cover the specific
                  service or drug.




                  30
                     Under certain circumstances, appeals may be dismissed, remanded to the prior level, or escalated to
                  the next level.

Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)            9
                  Table 3: Percentage of ALJ Appeals That Were Fully
                  Favorable to Appellants, by Medicare Program Area, FY 2010

                                                                                    Percentage Fully
                   Medicare Program Area
                                                                              Favorable to Appellants

                   Part A                                                                             62%
                         Hospitals                                                             72%
                         Home Health/Hospice Agencies                                          62%
                         Other Part A                                                          61%
                         Skilled Nursing Facilities                                            51%
                   Part B                                                                             59%
                         Transportation                                                        67%
                         Diagnostic Testing                                                    63%
                         Practitioner Services                                                 60%
                         Other Part B                                                          48%
                   DMEPOS                                                                             53%
                   Other*                                                                             26%
                   Part D                                                                             19%
                   Part C                                                                             18%
                   Source: OIG analysis of MAS data, 2012.
                  * This category includes appeals about beneficiary premiums and entitlement to Medicare.


                  The fully favorable rate also varied substantially by appellant type. For providers,
                  it was 61 percent. In contrast, the fully favorable rate was 28 and 22 percent for
                  beneficiaries and State Medicaid agencies, respectively. The rate was lower for
                  beneficiaries than for providers, partly because the majority of beneficiary appeals
                  dealt with Parts C and D, while providers rarely filed such appeals. Overall, the
                  fully favorable rate for providers who were frequent filers differed only slightly
                  from the rate for other providers. See Appendix B for more information about the
                  fully favorable rates for each appellant type, as well as for providers that were and
                  were not frequent filers.

                  Differences between ALJ and QIC decisions were due to
                  different interpretations of Medicare policies and other
                  factors
                  ALJs differed from QICs in their interpretation of Medicare policies, in their
                  degree of specialization, and in their use of clinical experts. These differences
                  contributed to different decisions at the ALJ and QIC levels.
                  ALJs tended to interpret Medicare policies less strictly than QICs
                  Most ALJ and QIC staff agreed that reasonable people can interpret Medicare
                  policies differently, and several staff emphasized that some policies need to be
                  flexible to cover a wide range of beneficiary circumstances. At the same time,
                  both ALJ and QIC staff indicated that ALJs tended to interpret Medicare policies

Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)          10
                  less strictly than QICs. Most ALJ staff noted that ALJs often decided in favor of
                  appellants when the intent, but not the letter, of a Medicare policy was met. In
                  contrast, most QICs noted that they try to follow Medicare policy strictly. One
                  QIC added that it approaches appeals expecting to uphold prior-level decisions
                  unless the evidence to reverse is compelling.
                  ALJ and QIC staff offered several examples to illustrate their differences in
                  interpreting Medicare policies. In one example, QICs denied home health
                  services because beneficiaries did not meet the requirement to be homebound;
                  then ALJs determined that the home health services were reasonable and
                  necessary without focusing on the homebound requirement. In another example,
                  QICs denied payments because beneficiaries met only 9 out of 10 criteria in the
                  Local Coverage Determination, but ALJs found that the beneficiaries met the
                  broader intent of the policy and reversed the decision.
                  In addition, ALJ and QIC staff commonly noted that some Medicare policies are
                  unclear. Several staff cited examples of policies with vague definitions, such as
                  coverage for beneficiaries who have “unique characteristics” or are “declining.”
                  Many ALJ staff emphasized the need to write policies more narrowly or more
                  clearly, noting that unclear policies lead to more fully favorable decisions and to
                  more variation among ALJs.
                  ALJs and QICs differed in the degree to which they specialized in
                  Medicare program areas and in their use of clinical experts
                  Each of the QICs specializes in a Medicare program area: two QICs are
                  responsible for Part A appeals, two for Part B, and one for DMEPOS. In contrast,
                  ALJs typically decide appeals involving all Medicare program areas because their
                  appeals are usually randomly assigned. 31 Several ALJ staff noted that increased
                  specialization would make the appeals system more efficient. As one ALJ
                  respondent noted, “In a month, I will have 10 Part A, 10 Part B, 3 Part D …
                  [going] back and forth between different regulations … it’s hard.”
                  Additionally, ALJs and QICs used clinical experts to different degrees. QICs
                  have medical directors and clinicians on staff to review decisions. In contrast,
                  ALJs do not have medical directors and clinicians on staff. Several ALJ staff said
                  ALJs tended to rely on testimony and other evidence from treating physicians.
                  For example, one ALJ staff member said, “[The ALJ] will listen to the treating
                  physician and will give deference to the physician’s opinion.”

                  The favorable rate varied widely by ALJ
                  Some ALJs were much more likely than others to make decisions that were fully
                  favorable to appellants. Among the 66 ALJs, the fully favorable rate ranged from


                  31
                       ALJ appeals must be assigned “in rotation so far as practicable.” See 5 U.S.C. § 3105.

Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)             11
                  18 to 85 percent. 32 As shown in Figure 1, while about two-thirds of ALJs had
                  fully favorable rates between 41 and 70 percent, 8 ALJs had fully favorable rates
                  higher than 70 percent and 13 had fully favorable rates at or below 40 percent.
                  Very little of this variation was associated with some ALJs’ deciding more appeals
                  in certain Medicare program areas than other ALJs. See Appendix C.

                  Figure 1: Number of ALJs by the Percentage of Appeals That Were Fully
                  Favorable to Appellants, FY 2010

                                        20




                                        15
                       Number of ALJs




                                        10




                                        5




                                        0
                                             11–20%   21–30%   31–40%   41–50%   51–60%   61–70%   71–80%    81–90%
                                                      Percentage of Appeals Fully Favorable to Appellants

                  Source: OIG analysis of MAS data, 2012.



                  Moreover, frequent filers often received fully favorable decisions at very different
                  rates from different ALJs. For example, a supplier with nearly
                  600 appeals received fully favorable decisions at rates ranging from
                  7 to 100 percent from the 17 ALJs who decided at least 10 of the supplier’s
                  appeals.
                  According to many ALJ staff, different philosophies among ALJs contribute to the
                  variation in fully favorable rates. They said that given the same facts and the
                  same applicable Medicare policy, some ALJs would make decisions that are
                  favorable to appellants, while others would not. One ALJ concluded, “Some
                  [ALJs] pay, some deny.” Another ALJ stated, “I go towards protecting the
                  Medicare Trust Fund[s].”


                  32
                     The analysis for this finding was limited to ALJs who decided at least 50 appeals as fully favorable,
                  partially favorable, or unfavorable during FY 2010.

Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)            12
                  ALJs also varied in their use of on-the-record reviews. An ALJ may make a
                  decision after an on-the-record review of the case file, instead of after a hearing, if
                  the appellant waives the right to a hearing or if the evidence supports a fully
                  favorable decision for the appellant. Among all ALJs, the percentage of appeals
                  decided after on-the-record reviews ranged from less than 1 to 65 percent.

                  CMS participated in 10 percent of ALJ appeals; these
                  appeals were less likely to be decided fully in favor of
                  appellants
                  Overall, CMS participated in 10 percent of the appeals that ALJs decided in
                  FY 2010. 33 Participation varied substantially across Medicare program areas,
                  with CMS participating in 18 percent of DMEPOS appeals, 9 percent of Part A
                  appeals, and 5 percent of Part B appeals. In 61 percent of the appeals in which
                  CMS participated, it provided testimony during hearings. In the remaining
                  39 percent of appeals, CMS submitted position papers to the ALJs. CMS rarely
                  chose to be a party, which would have allowed it to submit evidence, call or cross-
                  examine witnesses, or appeal to the next level.
                  When CMS participated, ALJs were less likely to decide fully in favor of
                  appellants. Overall, 44 percent of ALJ decisions were fully favorable to
                  appellants when CMS participated. In contrast, 60 percent of ALJ decisions were
                  fully favorable when CMS did not participate. As shown in Table 4, this
                  difference was greatest for DMEPOS appeals.


                  Table 4: Fully Favorable Rates When CMS Participated and When CMS Did Not
                  Participate, by Medicare Program Area, FY 2010

                                                                      Percentage of Appeals
                                                                   Fully Favorable to Appellants             Percentage
                    Medicare Program Area                                                                          Point
                                                                     When CMS              When CMS Did      Difference*
                                                                    Participated           Not Participate

                    Part A                                                    59%                    62%              4
                    Part B                                                    48%                    59%             12
                    DMEPOS                                                    30%                    58%             28
                       All Appeals                                            44%                    60%             16
                  Source: OIG analysis of MAS data and CMS participation data, 2012.
                  * Rows do not subtract to percentage point differences because of rounding.




                  CMS and ALJ staff noted several benefits of CMS participation. Most CMS staff
                  cited an improved relationship between the two agencies, and many ALJ staff

                  33
                     The analysis for this finding was limited to Part A, Part B, and DMEPOS appeals. CMS does not
                  participate in Parts C and D appeals, which typically involve disputes between appellants and their
                  private plans.

Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)                  13
                  noted that CMS often provided needed information. Most CMS staff further
                  noted that their participation in ALJ appeals has taught them to include more
                  specific information in their decisions and position papers to make them more
                  useful to ALJs.
                  Citing these benefits, nearly all CMS staff reported plans to increase participation
                  in ALJ appeals, especially by the contractors that originally denied the claims or
                  recouped the claim payments. A few staff noted that these contractors are often in
                  the best position to defend their decisions. In FY 2010, only one of these
                  contractors participated regularly, with QICs accounting for nearly all of the
                  remaining participation.34 CMS staff also reported plans to become a party, rather
                  than a participant, more often, stating that this will allow the agency to better
                  present its position.

                  Staff raised concerns about the acceptance of new evidence
                  and the organization of case files
                  Most CMS and ALJ staff noted that the requirements for accepting new evidence
                  at the ALJ level are open to wide interpretation. Starting in 2005, ALJs may
                  accept new evidence only if they determine that appellants had good cause for
                  waiting until the appeals reached the ALJ level to submit it. Most ALJ staff said
                  that they typically accepted new evidence when submitted. As one ALJ
                  explained, an ALJ’s role “is to make a determined effort to find out all of the
                  relevant information to make the best determination…. Maybe I let that color my
                  determination of letting in new evidence.”
                  Nearly all CMS staff reported that the ALJs’ acceptance of new evidence reduced
                  the efficiency of the appeals system. Most of them noted that appellants are
                  required, and have many opportunities, to submit evidence prior to the ALJ level.
                  According to one CMS staff member, when ALJs accept new evidence without
                  good cause, it “eliminates the value of the two previous levels of appeal.”
                  Nearly all CMS and ALJ staff also identified problems with case files. They
                  reported that a case file at the ALJ level often differed in content, organization,
                  and format compared to the same appeal’s case file at the QIC level. Staff noted
                  that these differences created inefficiencies in the appeals process. Most ALJ staff
                  reported that incomplete or disorganized case files caused them to spend time
                  requesting information from QICs or appellants, remanding appeals back to QICs,
                  or reorganizing case files. Many ALJ and CMS staff noted that the two agencies
                  need to reach an agreement regarding how QICs should organize the case files
                  before sending them to the ALJ level.



                  34
                     CMS funded a demonstration project to increase participation by one of the DMEPOS contractors
                  that make the initial decisions to pay or deny claims.

Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)      14
                  In addition, problems arise because the QICs’ case files are almost entirely
                  electronic, while ALJs accept only paper case files. The QICs convert the
                  electronic case files to paper format before sending them to the ALJs; most staff
                  noted that this process is resource intensive and prone to error. In a
                  February 2011 report to Congress, the Chief ALJ acknowledged that her agency
                  had “a critical need to transform its case file process from paper to a fully
                  electronic environment.” 35

                  ALJ staff handled suspicions of fraud inconsistently
                  When deciding an appeal, ALJ staff may come across evidence that suggests an
                  appellant engaged in Medicare fraud. For example, evidence may suggest that the
                  Medicare services were not furnished or were not furnished as billed. Nearly all
                  ALJ staff reported having suspected appellants of Medicare fraud; however, they
                  were inconsistent in how they handled their suspicions. In addition, the agency
                  does not have written policies about how ALJ staff should handle suspected fraud.
                  Notably, ALJ staff differed in the extent to which they referred suspected fraud to
                  their supervisors or to law enforcement. While many staff had made at least one
                  fraud referral, many others did not make referrals based on their suspicions.
                  Several of those who did not refer stated that the evidence of fraud was limited
                  and a referral would not have been appropriate. Several others, however,
                  indicated that making fraud referrals is not part of their job. For example, one
                  staff member said, “[I] never referred and don’t want to refer anything … [it is]
                  not our business here;” another said “there is an unspoken rule not to report
                  [fraud].”
                  When deciding an appeal, ALJ staff also differed in whether they sought
                  additional information when they suspected fraud. A few staff reported that they
                  sought additional information by reviewing licensing databases, searching the
                  Internet, or calling investigators. Several staff also were in favor of more
                  communication between law enforcement and ALJs regarding fraud
                  investigations. In contrast, other staff were opposed to having any additional
                  information when deciding an appeal.
                  ALJ staff also differed in how they made decisions when they suspected fraud.
                  Several ALJs explained that they decide against appellants if the evidence lacks
                  credibility and they suspect fraud. For example, one ALJ reported that he denied
                  a group of claims because all the medical records looked suspiciously similar. In
                  contrast, a few ALJs suggested that they assume the evidence is factual and do not
                  assess whether it may have been falsified.
                  Further, a few ALJ and CMS staff noted that having an appellant simultaneously
                  in the appeals system and under investigation for fraud presented challenges. In

                  35
                       OMHA, FY 2012 Justification of Estimates for Appropriations Committees, p. 4.

Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)    15
                  particular, CMS expressed concern that an appellant may manipulate the appeals
                  system to influence the fraud investigation. For example, appellants may
                  selectively appeal claims to obtain favorable ALJ decisions. Staff reported that
                  favorable ALJ decisions may compromise law enforcement’s ability to get a
                  conviction from a fraud investigation.




Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   16
                  CONCLUSION AND RECOMMENDATIONS
                  ALJs decide tens of thousands of appeals each year. Because these decisions are
                  critical to providers and beneficiaries and affect the Medicare program as a whole,
                  it is imperative that the appeals process be efficient, effective, and fair.
                  Our review found that the vast majority of ALJ appeals in FY 2010 were filed by
                  providers, with a small number of providers accounting for nearly one-third of all
                  appeals. For 56 percent of appeals, ALJs reversed prior-level decisions by QICs
                  and decided fully in favor of appellants. Differences between ALJ and QIC
                  decisions were due to different interpretations of Medicare policies and other
                  factors. These differences may provide appellants an incentive to appeal to the
                  ALJ level, where they are likely to receive favorable decisions.
                  Additionally, the favorable rate varied widely by ALJ. Further, when CMS
                  participated in appeals, ALJ decisions were less likely to be favorable to
                  appellants. In addition, ALJ and CMS staff raised concerns that the acceptance of
                  new evidence and the organization of case files reduced the efficiency of the
                  appeals system. Lastly, ALJ staff handled suspicions of fraud inconsistently.
                  Our findings highlight a number of inconsistencies and inefficiencies in the
                  Medicare appeals process. Together, they demonstrate that OMHA and CMS
                  must take action to improve the appeals system, while maintaining ALJs’
                  independence.
                  Therefore, we recommend that OMHA and CMS:
                  Develop and Provide Coordinated Training on Medicare Policies to
                  ALJs and QICs
                  OMHA and CMS should work together to develop and provide training on
                  Medicare policies to ALJ and QIC staff. By coordinating training, OMHA and
                  CMS will help ensure that knowledge of Medicare policies is consistent at the
                  second and third levels of appeal. OMHA and CMS should provide training at
                  least annually and focus on policies that tend to be interpreted differently by ALJs
                  and QICs or among ALJs. For example, one area of focus should be Part A
                  hospital appeals in which ALJs reversed prior-level decisions for nearly three-
                  quarters of appeals. The agencies should identify training topics by analyzing
                  appeals data and surveying staff.
                  Identify and Clarify Medicare Policies That Are Unclear and
                  Interpreted Differently
                  Unclear policies can lead to inconsistencies between ALJs and QICs and among
                  ALJs. At least annually, CMS and OMHA should identify policies that are
                  unclear and interpreted differently by soliciting input from CMS contractors and
                  ALJ staff and by analyzing appeals data. The agencies should focus on policies
                  with vague definitions, such as beneficiaries who are “declining,” and on program


Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   17
                  areas with particularly high favorable rates, such as Medicare Part A. CMS
                  should then work to develop or clarify these policies, as needed.
                  Standardize Case Files and Make Them Electronic
                  To improve the efficiency of the appeals process, OMHA and CMS should make
                  case files more consistent across the various levels of appeal. Finalizing and
                  enforcing a Memorandum of Understanding should be a first step toward
                  standardizing the content and organization of case files. As well as specifying
                  how the documents in the case file should be organized, the memorandum should
                  define a method, such as a checklist, for easily identifying which documents are
                  in the case file. OMHA and CMS should train staff on the memorandum
                  requirements.
                  In addition, OMHA should accelerate its Electronic Records Initiative to
                  transition from paper to electronic files. OMHA and CMS must coordinate this
                  effort closely and should take other measures in the interim to reduce formatting
                  differences in case files. The agencies may require additional funding to complete
                  the transition to electronic case files.
                  Revise Regulations To Provide More Guidance to ALJs Regarding
                  the Acceptance of New Evidence
                  Current regulations regarding the acceptance of new evidence provide little
                  guidance and only one example of good cause—when the QIC raises a new issue
                  not discussed at the first level of appeal. OMHA and CMS should revise these
                  regulations to include additional examples as well as factors for ALJs to consider
                  when determining good cause. In particular, the regulations should specify that
                  ALJs consider whether the appellant could have obtained the evidence earlier.
                  Improve the Handling of Appeals From Appellants Who Are Also
                  Under Fraud Investigation and Seek Statutory Authority To Postpone
                  These Appeals When Necessary
                  When Medicare providers are simultaneously in the appeals system and under
                  investigation for fraud, both the appeals process and the investigations may be
                  compromised. OMHA and CMS should improve how these cases are handled.
                  CMS should work with its contractors and law enforcement to identify and
                  monitor the appeals of providers that are under investigation. This information
                  should be used to inform decisions about administrative and law enforcement
                  actions and about whether CMS should participate at the ALJ level of appeal.
                  Additionally, OMHA and CMS should seek statutory authority to postpone
                  appeals at the levels they administer. The agencies should make decisions to
                  postpone appeals only after receiving a request from law enforcement and should
                  work with law enforcement to define the circumstances under which appeals may
                  be postponed. Postponement decisions should be made by OMHA and CMS staff
                  who are not directly responsible for deciding appeals.


Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   18
                  We recommend that OMHA:
                  Seek Statutory Authority To Establish a Filing Fee
                  Given the concerns raised about appellants who filed frequently, OMHA should
                  seek statutory authority to implement a modest filing fee. Such a fee would only
                  nominally affect the average appellant, but would encourage frequent filers to
                  more carefully assess their appeals before filing. The fee should not apply to
                  beneficiaries. OMHA should consider various options for making the fee
                  effective and fair, such as scaling the fee to the dollar amount at issue.
                  Implement a Quality Assurance Process To Review ALJ Decisions
                  The range of fully favorable rates among ALJs raises concerns about whether all
                  ALJs are applying Medicare policies in accordance with regulations. Medicare
                  regulations state that ALJs are bound by Medicare laws, regulations, and National
                  Coverage Determinations and must give substantial deference to Local Coverage
                  Determinations and CMS program guidance. OMHA should implement a quality
                  assurance process to review ALJ decisions. OMHA could, for example, review a
                  sample of ALJ decisions and, when needed, provide ALJs with additional training.
                  OMHA may want to focus its efforts on certain types of appeals, such as those
                  concerned with policies that tend to be interpreted differently among ALJs.
                  OMHA should also assess ALJs’ use of on-the-record reviews to make decisions.
                  Determine Whether Specialization Among ALJs Would Improve
                  Efficiency
                  OMHA should determine whether specialization among ALJs would improve the
                  efficiency of the appeals process. Any specialization would need to be consistent
                  with the statutory requirement to randomly assign appeals. If OMHA decides to
                  implement specialization, it should develop policies and procedures describing the
                  manner and extent to which ALJs will specialize.
                  Develop Policies To Handle Suspicions of Fraud Appropriately and
                  Consistently and Train Staff Accordingly
                  OMHA should develop policies and provide training to ALJ staff regarding how
                  to handle suspicions of fraud. These policies and training should be developed in
                  collaboration with CMS and OIG and should inform staff about when and how to
                  refer suspicions of fraud. The policies and training should also instruct staff to
                  base decisions only on evidence in the case files and hearing testimony, as
                  required by Federal regulation, and to consider the credibility of the evidence
                  when making decisions. OMHA should work with CMS and OIG periodically to
                  keep informed about emerging fraud trends.
                  We recommend that CMS:
                  Continue To Increase CMS Participation in ALJ Appeals
                  Given the benefits cited by both agencies, CMS should continue to increase its
                  participation in ALJ appeals. Building upon its current efforts, CMS should make


Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   19
                  strategic decisions about which contractors are in the best position to represent
                  CMS and which appeals most warrant CMS participation, such as Part A hospital
                  appeals or those from frequent filers. CMS should establish participation
                  guidelines and incentives for each type of contractor and should track the results
                  of their participation. The guidelines should indicate the circumstances in which a
                  contractor should consider becoming a party, rather than a participant.




Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   20
                  AGENCIES’ COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  OMHA and CMS concurred fully or in part with all 10 of our recommendations.
                  With regard to the first recommendation, OMHA stated that it instituted, and
                  CMS participated in, an annual symposium that offers ALJs training on a wide
                  range of Medicare policies and emerging issues. CMS added that it has invited
                  OMHA to participate in its annual conference for contractor medical directors and
                  that it will continue working with OMHA to identify new opportunities for
                  collaboration.
                  With regard to the second recommendation, OMHA noted that while it is beyond
                  the scope of its mission to participate in Medicare policy development, it supports
                  efforts to clarify unclear policies and increased communication with CMS when
                  decisional trends reveal differing policy interpretations. CMS noted the value of
                  tracking appeals to determine which Medicare policies are most often at issue and
                  stated that in some instances, it might be beneficial to clarify a particular policy.
                  With regard to the third recommendation, OMHA stated that it is working with
                  CMS to develop a Memorandum of Understanding regarding standardizing case
                  files and to determine whether MAS can accommodate the electronic folder or
                  whether a new operating system must be developed. CMS added that it will
                  continue to discuss with OMHA options to fully develop an electronic system.
                  With regard to the fourth recommendation, OMHA stated that it will review
                  regulations regarding acceptance of new evidence and will develop guidance and
                  provide training to address ALJs’ concerns raised in the report. CMS added that it
                  will explore options for providing additional guidance regarding accepting new
                  evidence at the ALJ level.
                  With regard to the fifth recommendation, OMHA stated that it did not concur with
                  staff’s issuing determinations regarding postponement of ALJ decisions because
                  of due process concerns. CMS raised the same concerns and further noted that
                  postponing appeals could compromise fraud investigations. At the same time,
                  OMHA stated that it supports CMS’s developing a mechanism to limit appeals to
                  the ALJ level, and CMS proposed discussing concerns with OMHA to determine
                  the best approach for handling these appeals. In response, we recognize the
                  seriousness of the due process and other concerns and emphasize that
                  postponement should be considered only after weighing these concerns together
                  with the potential impact of fraudulent activities on beneficiaries and the
                  Medicare Trust Funds. We further emphasize that the agencies should make
                  decisions to postpone appeals only after receiving a request from law enforcement
                  and that these postponement decisions should not be made by ALJs or others who
                  are directly responsible for deciding appeals.



Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   21
                  With regard to the sixth through ninth recommendations, OMHA stated that it will
                  evaluate whether or not filing fee authority is appropriate and, if so, seek authority
                  to collect such fees. It further noted that it has instituted a Quality Assurance
                  Program based upon peer review of ALJ decisions. OMHA also stated that
                  although it is not convinced that ALJ specialization would improve case
                  processing, it will conduct further evaluation. Lastly, it stated that it has
                  conducted training and continues to develop policies with respect to handling
                  suspicions of fraud.
                  With regard to the tenth recommendation, CMS stated that it plans to increase
                  participation in ALJ appeals by the agency’s contractors. It will also enhance
                  participation guidelines for contractors and monitor the results of participation to
                  determine the most effective and efficient use of the resources currently available.
                  The full text of OMHA’s comments is provided in Appendix D, and the full text of
                  CMS’s comments is provided in Appendix E.




Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   22
                  APPENDIX A
                  Administrative Law Judge Appeals Filed by Each Type of Appellant,
                  Fiscal Year 2010


                                                                     Percentage of               Percentage of          Percentage of
                     Medicare Program Area                                Provider                 Beneficiary         State Medicaid
                                                                          Appeals                     Appeals         Agency Appeals

                     Part A                                                      40%                            16%              90%

                          Hospitals                                    9%                           4%                   <1%

                          Home Health/
                                                                       13%                          1%                   48%
                          Hospice Agencies

                          Other Part A                                 14%                          8%                    3%

                          Skilled Nursing Facilities                   4%                           4%                   39%

                     Part B                                                      34%                            16%              <1%

                          Transportation                               5%                           7%                   <1%

                          Diagnostic Testing                           7%                           1%                    0%

                          Practitioner Services                        13%                          3%                    0%

                          Other Part B                                 9%                           5%                   <1%

                     Durable Medical Equipment,
                     Prosthetics, Orthotics, and                                 25%                            5%                0%
                     Supplies

                     Part C                                                       1%                            47%              10%

                     Part D                                                     <1%                             8%                0%

                     Other*                                                     <1%                             8%                0%

                        Total**                                                 100%                       100%                 100%
                     Source: Office of Inspector General analysis of Medicare Appeals System data, 2012.
                     * This category includes appeals about beneficiary premiums and entitlement to Medicare.
                     ** Total may not sum to 100 percent because of rounding.




Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)                      23
                  APPENDIX B
                  Percentage of Administrative Law Judge Appeals That Were Fully Favorable to
                  Appellants, Fiscal Year 2010


                  Table B-1: Percentage of Administrative Law Judge Appeals That Were Fully Favorable to
                  Appellants by Type of Appellant, Fiscal Year 2010


                                                                             Percentage of Appeals Fully Favorable to Appellants**
                   Medicare Program Area
                                                                                                                                 State Medicaid
                                                                                     Providers             Beneficiaries
                                                                                                                                      Agencies

                   Part A                                                                   67%                     36%                       24%

                   Part B                                                                   59%                     46%                       n/a

                   Durable Medical Equipment, Prosthetics,
                                                                                            53%                     40%                       n/a
                   Orthotics, and Supplies (DMEPOS)

                   Part C                                                                   15%                     19%                       7%

                   Part D                                                                   15%                     20%                       n/a

                   Other*                                                                    n/a                    26%                       n/a

                       Total                                                                61%                     28%                       22%
                  Source: Office of Inspector General (OIG) analysis of Medicare Appeals System (MAS) data, 2012.

                  * This category includes appeals about beneficiary premiums and entitlement to Medicare.
                  ** The percentage of appeals with fully favorable decisions was calculated only if there were 50 or more appeals for that
                  Medicare program area.


                  Table B-2: Percentage of Administrative Law Judge Appeals That Were Fully Favorable to
                  Appellants by Frequent Filer Status, Fiscal Year 2010

                                                                                Percentage of Appeals Fully Favorable to
                                                                                              Appellants**
                   Medicare Program Area
                                                                              Providers Who Were            Providers Who Were
                                                                                 Frequent Filers***          Not Frequent Filers

                   Part A                                                                          67%                         67%

                   Part B                                                                          70%                         54%

                   DMEPOS                                                                          50%                         58%

                   Part C                                                                           n/a                        15%

                   Part D                                                                           n/a                        15%

                   Other*                                                                           n/a                         n/a

                       Total                                                                       61%                         60%
                  Source: OIG analysis of MAS data, 2012.
                  * This category includes appeals about beneficiary premiums and entitlement to Medicare.
                  ** The percentage of appeals with fully favorable decisions was calculated only if there were 50 or more appeals
                  for that Medicare program area.
                  *** A frequent filer is an appellant that had 50 or more appeals decided in fiscal year 2010.



Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)                                   24
                   APPENDIX C
                   Actual Fully Favorable Rates Compared to Expected Fully Favorable Rates by
                   Administrative Law Judge,* Fiscal Year 2010



                                                                                      100%

                                                                                             Actual
                        Percentage of ALJ Appeals Fully Favorable to the Appellants

                                                                                      90%
                                                                                             Expected

                                                                                      80%


                                                                                      70%


                                                                                      60%


                                                                                      50%


                                                                                      40%


                                                                                      30%


                                                                                      20%


                                                                                      10%


                                                                                       0%
                                                                                             The 66 ALJs Sorted by Percentage of Decisions
                                                                                                    Fully Favorable to the Appellants

                    Source: Office of Inspector General analysis of Medicare Appeals System data, 2012.
              Note: To calculate each ALJ’s expected rate, we first determined the fully favorable rate among all ALJs for each Medicare program
              area; next, we multiplied these rates by the proportion of appeals the ALJ had in that program area and summed the results.

              *ALJ.




Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)                                          25
                    APPENDIX DD
                    APPENDIX
                    Office of
                    Office  ofMedicare
                              Medicare Hearings
                                       Hearingsand
                                                and Appeals
                                                    Appeals Comments
                                                            Comments




                          DEPARTMENTOF
                         DEPARTMENT  OFHEALTH
                                        HEALT HAND
                                                ANDHUMAN
                                                    HUMANSERVICES
                                                          SERVICES                           Offtce of the SecretaJY
                                                                                            Office of the Secretary
                                                                                             Office of Medicare Hearings and Appeals
                                                                                            Office of Medicare Hearings and Appeals
                                                                                             Office of the Chief Judge
                                                                                            Office of the Ch ief Judge
                                                                                             1700 North Moore Street, Suite 1800
                                                                                            1700   North Moore Street, Suite 1800
                                                                                             Arlington, VA 22209
                                                                                            Arlington, VA 22209
                                                                                             (703)  235-0635Main
                                                                                            (703) 235-0635     Main Line
                                                                                                                    Line
                                                                                             (703)235-0700
                                                                                            (703)   235-0700Facsimile
                                                                                                               Facsimile




                MEMORANDUM
                MEMORANDUM

                Date:
                Date:             September 14,2012
                                 September   14, 2012

                 To:
                To:             Daniel  R. Levinson
                                 DanielR.   Levinson
                                 InspectorGeneral
                                Inspector  General
                                          ~
                                        /S/
                 From:
                From:            NancyJflQriswold
                                Nancy       iswold
                                 ChiefAdministrative
                                Chief AdministrativeLaw
                                                     LawJudge
                                                         Judge

                 Subject:
                Subject:         OfficeofofInspector
                                Office      InspectorGeneral
                                                      GeneralDraft
                                                             DraftReport:
                                                                   Report: Improvements
                                                                            Improvementsareareneeded
                                                                                               neededatat
                                 TheAdministrative
                                The  AdministrativeLawLawJudge
                                                          JudgeLevel
                                                                 LevelofofMedicare           OEl-02-l 0-00340
                                                                                   Appeals, OEI-02-10-00340
                                                                         Medicare Appeals,


                 Thank you
                Thank    you for
                              for the
                                   the opportunity
                                        opportunity toto review
                                                           review andand comment
                                                                          comment on on the
                                                                                         the Office
                                                                                              Office ofofInspector
                                                                                                          Inspector General's
                                                                                                                     General's
                 (OIG)draft
                (OIG)   draftreport
                              reportononMedicare
                                           Medicareappeals
                                                       appealsatatthe
                                                                   theAdministrative
                                                                       AdministrativeLaw LawJudge
                                                                                              Judge(AU)
                                                                                                     (ALJ)level.
                                                                                                             level.The
                                                                                                                    TheOffice
                                                                                                                         Office
                ofofMedicare
                    Medicare Hearings
                                Hearings and and Appeals
                                                 Appeals (OMHA)
                                                             (OMHA) appreciates
                                                                          appreciates the
                                                                                       the thoroughness
                                                                                            thoroughness ofof the
                                                                                                               the report
                                                                                                                    report and
                                                                                                                            and
                 concurswith
                concurs   withmany
                                manyofofthethesuggested
                                               suggestedrecommendations
                                                            recommendationswhich whicharearebased
                                                                                             basedononthe
                                                                                                        theevaluation
                                                                                                            evaluationofofALI
                                                                                                                           ALJ
                 appealsduring
                appeals   duringfiscal
                                  fiscal year
                                          year20
                                               201
                                                 IO.0.

                 We are
                We   arehappy
                         happytotoreport
                                   report that
                                           thataanumber
                                                    nwnberofofrecommendations
                                                               recommendationsare   arealready
                                                                                        alreadybeing
                                                                                                bt:ingaddressed
                                                                                                       addressed through
                                                                                                                    through
                 OMHA's continuing
                OMHA's     continuing efforts
                                        efforts totoreview
                                                     review and
                                                             and improve
                                                                  improve operations.
                                                                            operations. However,
                                                                                         However, with    respecttoto aafew
                                                                                                    with respect         few
                 recommendations, we
                recommendations,       we believe
                                            believe that
                                                       that more
                                                            more evaluation
                                                                    evaluation isis necessary.
                                                                                     necessary. OurOur response
                                                                                                         response toto thethe
                 recommendations    is set forth
                recommendations is set forth below.below.

                 RECOMMENDATION: Develop
                RECOMMENDATION:   Developand
                                          andProvide
                                              ProvideCoordinated
                                                      CoordinatedTraining
                                                                  Trainingon
                                                                           onMedicare
                                                                             MedicarePolicies
                                                                                      Policiestoto
                                  ALJsandQICs
                                 ALJs  andQ/Cs

                 RESPONSE:CONCUR
                RESPONSE:  CONCUR

                 Beginningininfiscal
                Beginning         fiscal year
                                          year2010,
                                               2010,OMHA
                                                       OMHAinstituted
                                                               institutedananannual
                                                                              annualJudicial
                                                                                     Judicial Education
                                                                                               EducationSymposium
                                                                                                          Symposium(JES)(JES)
                for  all OMHA
                 forall   OMHAAUs.  ALJs. JESJES isisconducted
                                                      conducted ininthree
                                                                     threephases
                                                                           phasesthroughout
                                                                                  throughoutthethecalendar
                                                                                                   calendaryear
                                                                                                             yearand
                                                                                                                   and offers
                                                                                                                        offers
                 training on
                training    on aa wide
                                   wide range
                                          range ofofMedicare
                                                     Medicare policies
                                                                policies and
                                                                          and emerging
                                                                               emerging OMHA
                                                                                         OMHA issues,
                                                                                                   issues. The
                                                                                                            The symposium
                                                                                                                 symposiwn
                 presenters include
                presenters    include Centers
                                         Centers for
                                                   for Medicare
                                                        Medicare and
                                                                   and Medicaid
                                                                        Medicaid Services
                                                                                  Services (CMS)
                                                                                            (CMS) subject
                                                                                                     subject matter
                                                                                                             matter experts,
                                                                                                                     experts,
                 MedicareAppeals
                Medicare     AppealsCouncil
                                         Council(MAC)
                                                   (MAC)judges
                                                           judgesandand OMHA's
                                                                         OMHA'smostmostexperienced
                                                                                        experiencedAUs.ALJs. OMHA
                                                                                                              OMHAseeks seeks
                 input   from   ALJs    and   CMS
                input from AUs and CMS in identifying topics for presentation based on new policies oror
                                                      in identifying   topics for presentation   based  on  new   policies




 ImprovementsAre
Improvements  Are Needed
                   Needed atatthe
                               theAdministrative
                                   AdministrativeLaw
                                                  LawJudge
                                                      JudgeLevel
                                                            Level ofofMedicare
                                                                      MedicareAppeals
                                                                               Appeals (OEI-02-1
                                                                                        (OEI-02-10·00340)
                                                                                                  0-00340)                              26
                                                                                                                                       26
Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   27
Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   28
Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   29
Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   30
                   APPENDIX EE
                   APPENDIX
                   Centers for
                   Centers for Medicare
                               Medicare & Medicaid
                                          Medicaid Services
                                                   Services Comments
                                                            Comments




                    DEPARTMENT OF
                               OF HEALTH
                                  HEALTH & HUMAN SERVICES
                                         & HUMAN SERVICES                                                   Centers tor
                                                                                                            Centers      Medicare && Medicaid
                                                                                                                     tor Medicare    Medicaid Services
                                                                                                                                              Services
                    DEPARTMENT

                                                                                                            Administrator
                                                                                                            Administrator
                                                                                                            Washington , DC
                                                                                                            Washington,  DC 20201
                                                                                                                            20201




                DATE:
                DATE:          .SEP
                               SEP 11 88 2012
                                         2012
                TO: 	
                TO:              Daniel R.
                                 Daniel  R. Levinson
                                            Levinson
                                 Inspector General
                                                         /S/
                FROM:
                FROM:            Marilyn Tavenner
                                 Acting Adm'lmstrator

                SUBJECT: 	 Office
                SUBJECT:   Office of
                                  of Inspector
                                     Inspector General
                                               General (OIG)
                                                       (OIG) Draft
                                                             Draft Report:
                                                                    Report: "Improvements
                                                                            "Improvements Are
                                                                                            Are Needed
                                                                                                Needed at
                                                                                                        at
                           the Administrative
                           the Administrative Law
                                               Law Judge
                                                   Judge Level
                                                          Level of
                                                                of Medicare
                                                                   Medicare Appeals"
                                                                             Appeals" (OEI-02-10-00340)
                                                                                      (OEI-02-10-00340)


                Thank you
                Thank   you for
                              for the
                                   the opportunity
                                       opportunity toto review
                                                        review and
                                                                 and comment
                                                                      comment on on the
                                                                                    the OIG
                                                                                        OIG draft
                                                                                              draft report,
                                                                                                    report, "Improvements
                                                                                                             " Improvements
                Are Needed
                Are  Needed at  at the
                                   the Administrative
                                       Administrative Law Law Judge
                                                               Judge Level
                                                                       Level of
                                                                             of Medicare
                                                                                 Medicare Appeals."
                                                                                            Appeals." In In the
                                                                                                            the draft
                                                                                                                 draft report,
                                                                                                                       report,
                the OIG
                the OIG examined
                          examined the  the characteristics
                                            characteristics of
                                                             of appeals
                                                                appeals decided
                                                                         decided byby Medicare
                                                                                      Medicare administrative
                                                                                                 administrative lawlaw judges
                                                                                                                         judges
                (AUs) in
                (AUs)    in fiscal
                            fiscal year
                                     year (FY)
                                          (FY) 2010;
                                                2010; the
                                                       the differences
                                                            differences between
                                                                         between AUAU andand prior-level
                                                                                             prior-level decisions
                                                                                                           decisions and
                                                                                                                       and
                differences among
              • differences    among AUs;
                                        AUs; and
                                               and the
                                                    the extent
                                                         extent to
                                                                to which
                                                                    which the
                                                                          the Centers
                                                                              Centers for
                                                                                        for Medicare
                                                                                             Medicare &    Medicaid Services
                                                                                                        & Medicaid     Services
                (CMS) participated
                (CMS)    participated in    AU appeals
                                         in AU   appeals inin FY
                                                              FY 2010.
                                                                   2010. We
                                                                          We appreciate
                                                                              appreciate the
                                                                                           the ~IG's
                                                                                               OIG's time
                                                                                                       time and
                                                                                                             and effort
                                                                                                                  effort in
                                                                                                                          in
                reviewing our
                reviewing    our processes.
                                  processes. Our
                                               Our responses
                                                     responses toto the
                                                                    the OIG's
                                                                        OIG's recommendations
                                                                                recommendations are  are below.
                                                                                                         below.

                Recommendations to
                Recommendations to eMS
                                   CMS and
                                       and the
                                           the Office
                                               Office of
                                                      ofMedicare  Hearings and
                                                         Medicare Hearings andAppeals
                                                                               Appeals (OMHA):
                                                                                       (OMHA):

                    Recommendation
                OIG Recommendation
                OIG

                The OIG
                The  OIG recommends
                           recommends CMS
                                        CMS and
                                              and OMHA
                                                  OMHA develop
                                                         develop and
                                                                 and provide
                                                                     provide coordinated
                                                                              coordinated training
                                                                                          training on
                                                                                                   on Medicare
                                                                                                      Medicare
                policies to
                policies to Administrative
                             Administrative Law
                                            Law Judges (AUs) and
                                                Judges (AUs)  and Qualified
                                                                  Qualified Independent
                                                                            Independent Contractors
                                                                                         Contractors (QICs).
                                                                                                      (QICs).

                CMS Response
                CMS Response

                The CMS
                The  CMS concurs
                            concurs with
                                      with this
                                             this recommendation.
                                                  recommendation. In    In 2011
                                                                            2011 andand 2012,
                                                                                         2012, CMS
                                                                                                 CMS staff
                                                                                                        staff participated
                                                                                                              participated in in
                OMHA's
                OMRA       annual Judicial
                        '5 annual    Judicial Education
                                               Education Symposium,
                                                             Symposium, and and conducted
                                                                                  conducted training
                                                                                                training on
                                                                                                          on aa variety
                                                                                                                variety ofof
                Medicare policy
                Medicare   policy issues.
                                    issues. The
                                              The symposia
                                                    symposia afford
                                                                afford AUs
                                                                        AUs andand their
                                                                                     their staffs
                                                                                           staffs an
                                                                                                   an opportunity
                                                                                                       opportunity to to discuss
                                                                                                                         discuss
                general policy
                general  policy and
                                 and procedural
                                       procedural issues
                                                     issues with
                                                             with CMS.
                                                                   CMS. This
                                                                           This training
                                                                                   training is
                                                                                             is mutually
                                                                                                mutually beneficial,
                                                                                                           beneficial, andand we
                                                                                                                               we
                would welcome
                would   welcome thethe opportunity
                                        opportunity to  to include
                                                           include the
                                                                    the OICs
                                                                        QICs in in future
                                                                                    future sessions.
                                                                                            sessions. Similarly,
                                                                                                         Similarly, in
                                                                                                                     in recent
                                                                                                                         recent
                years, CMS
                years, CMS hashas invited
                                   invited OMHA
                                             OMHA leadership
                                                       leadership toto participate
                                                                       participate in in our
                                                                                         our annual
                                                                                              annual Contractor
                                                                                                       Contractor Medical
                                                                                                                     Medical
                Director conference
                Director  conference attended
                                         attended byby CMS
                                                        CMS staff
                                                               staff and
                                                                     and staff
                                                                         staff from
                                                                                 from our
                                                                                        our Medicare
                                                                                             Medicare Administrative
                                                                                                          Administrative
                Contractors (MACs),
                Contractors   (MACs), OICs,
                                          QICs, Recovery
                                                   Recovery Auditors
                                                               Auditors (RAs),
                                                                         (RAs), and and Zone
                                                                                         Zone Program
                                                                                                 Program Integrity
                                                                                                            Integrity Contractors
                                                                                                                       Contractors
                (ZPICs). Like
                (ZPICs).   Like the
                                 the Judicial
                                       Judicial Education
                                                 Education Symposia,
                                                               Symposia, this
                                                                           this conference
                                                                                 conference provides
                                                                                                provides anan opportunity
                                                                                                               opportunity for for our
                                                                                                                                   our
                contractor staff
                contractor  staff to
                                  to interact
                                      interact with
                                                with and
                                                       and ask
                                                            ask questions
                                                                questi ons of
                                                                            of OMRA
                                                                                OMHA staffstaff and
                                                                                                  and senior
                                                                                                       senior leadership
                                                                                                               leadership about
                                                                                                                             about
                policy and
                policy  and procedural
                             procedural issues.
                                           issues. Finally,
                                                     Finally, our
                                                               our OICs
                                                                    QICs also
                                                                          also have
                                                                                 have access
                                                                                        access toto training
                                                                                                    training and
                                                                                                              and educational
                                                                                                                   educational




Improvements Are
lmprovements Are Needed
                 Needed at
                        at the
                           the Administrative
                               Administrative Law
                                              Law Judge
                                                  Judge Level
                                                        Level of
                                                              of Medicare
                                                                 Medicare Appeals
                                                                          Appeals (OEI-02-10-00340)
                                                                                  (OEI-02-10-00340)                                                31
Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   32
Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   33
Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   34
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Jodi Nudelman, Regional
                  Inspector General for Evaluation and Inspections in the New York regional office,
                  and Nancy Harrison and Meridith Seife, Deputy Regional Inspectors General.
                  Judy Bartlett served as the team leader for this study. Other Office of Evaluation
                  and Inspections staff from the New York regional office who conducted the study
                  include Rachel Bryan, Christine Moundas, Liz Osius, and Michael Rubin.
                  Central office staff who provided support include Scott Manley and Debra Roush.




Improvements Are Needed at the Administrative Law Judge Level of Medicare Appeals (OEI-02-10-00340)   35
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
